           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  CHARACTERISTICS OF REPRESENTATIVE
      PAYEES THAT MAY INCREASE
      THE RISK OF BENEFIT MISUSE

      August 2009   A-09-08-38055




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   August 20, 2009                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Characteristics of Representative Payees That May Increase the Risk of Benefit Misuse
        (A-09-08-38055)


        OBJECTIVE
        Our objective was to determine whether certain characteristics of representative payees
        resulted in an increased risk of benefit misuse.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted the Social
        Security Administration (SSA) the authority to appoint representative payees to receive
        and manage these beneficiaries’ benefit payments.1 A representative payee may be an
        individual or an organization. SSA selects representative payees for Old-Age, Survivors
        and Disability Insurance (OASDI) beneficiaries or Supplemental Security Income (SSI)
        recipients when representative payments would serve the individual’s interests.

        SSA’s primary concern is to select a representative payee who will best serve the
        beneficiary’s interests; and preference is normally given to a parent, legal guardian,
        spouse, or other relative of a beneficiary.2 SSA considers payments to a representative
        payee to have been used for the benefit of the beneficiary if they were spent on the
        beneficiary’s current maintenance—which includes the costs incurred in obtaining food,
        shelter, clothing, medical care, and personal comfort items.3 Misuse of benefits occurs
        when representative payees neither use benefits for the current and foreseeable needs




        1
            42 U.S.C. § 405(j) and 42 U.S.C. § 1383(a).
        2
            SSA, Program Operations Manual System (POMS), GN 00502.105.
        3
            SSA, POMS, GN 00602.001.A.2.
Page 2 – The Commissioner


of beneficiaries nor conserve benefits for beneficiaries.4 Finally, representative payees
must report any changes to SSA that may affect beneficiaries’ entitlement or amount of
payment.5

The Social Security Protection Act of 2004 requires that SSA conduct a one-time survey
to determine how payments to individual representative payees are being managed and
used on behalf of the beneficiaries in their care.6 In September 2004, SSA contracted
with the National Academy of Sciences (NAS) to complete the required study. One of
the objectives of the study was to identify the types of representative payees that have
the highest risk of misuse. In July 2007, NAS issued a report on Improving the Social
Security Representative Payee Program: Serving Beneficiaries and Minimizing Misuse
that identified several characteristics of individual representative payees that may be
potential indicators of misuse or poor performance.

To determine whether the NAS characteristics increase the risk of misuse, we identified
all individual representative payees who served 14 or fewer beneficiaries. From this, we
identified a population of 3,329 representative payees who had at least 3 of the
following characteristics.

     The payee served between 4 and 14 beneficiaries.
     At least one beneficiary was not a relative of the representative payee.
     The payee had self-employment income.
     The payee had no earnings from employment (that is, wages).
     The payee was under age 50 and had annual earnings less than $9,973.7

At the time of our review, these 3,329 representative payees managed approximately
$125.2 million in annual benefits for 17,288 beneficiaries. From this population, we
selected for review a sample of 60 representative payees who managed the benefits of
332 beneficiaries (see Appendix C).




4
    SSA, POMS, GN 00604.001.B.4.
5
    A Guide for Representative Payees, SSA Publication No. 05-0076, January 2009.
6
    The Social Security Protection Act of 2004, Pub.L. No. 108-203, § 107.
7
  This is a modification of the NAS characteristic “payee under 50 years of age.” We made this
modification because we believe representative payees in this age group with limited earnings may have
a higher risk of benefit misuse. The $9,973 is the poverty threshold for Calendar Year 2005 for an
individual. At the time of our review, 2005 was the most recent year that all earnings information had
been posted to SSA’s Master Earnings File.
Page 3 – The Commissioner


RESULTS OF REVIEW
We found the NAS characteristics should be used to identify representative payees who
have an increased risk of benefit misuse. We also found the characteristics were
reliable indicators of poorly performing representative payees. Our review disclosed
that 42 of the 60 representative payees8 engaged in 1 or more practices that increased
the risk of benefit misuse. Specifically, we found:

   5 would not confirm whether 11 beneficiaries were in their care during our audit. We
    referred these cases to SSA for appropriate action.

   39 did not maintain adequate documentation to support expenditures for
    194 beneficiaries who received $1.2 million in annual benefit payments.

   2 did not provide for the basic needs of 4 beneficiaries.

   8 acted as conduit payees for 20 beneficiaries.

   9 did not report events affecting the benefit payments of 21 beneficiaries, which
    resulted in overpayments totaling $109,474.

   1 acted as a “de facto” representative payee for 3 beneficiaries without SSA’s
    knowledge.

The remaining 17 representative payees generally maintained adequate documentation
to support beneficiaries’ expenditures; used benefits for beneficiaries’ current and
foreseeable needs; and properly reported events that may have affected benefit
payments.

Beneficiaries Who May Not Have Been in Their Representative Payees’ Care

To determine whether beneficiaries were in the representative payees’ care, we
requested personal interviews with each beneficiary. We confirmed that 316 of the
beneficiaries were in the care of their representative payees. However, we were unable
to confirm whether 11 beneficiaries were in the care of 5 representative payees. The
5 representative payees received approximately $73,000 in benefits on behalf of the
11 beneficiaries. Of these, three did not have documentation to support beneficiaries’
expenditures. The remaining two representative payees provided only limited
documentation to support beneficiary expenditures; however, SSA had previously
determined that one of these representative payees committed benefit misuse of
$4,628 for a beneficiary previously in her care.




8
  Because of an on-going criminal investigation, we did not interview one representative payee or any of
the five beneficiaries who were in his care.
Page 4 – The Commissioner


We referred these cases to SSA to confirm whether the beneficiaries were in the
representative payees’ care and to take necessary action. Following is a summary of
the five representative payee cases.

   A woman in Roxbury, Massachusetts, who was under age 50 with earnings below
    the poverty level, was representative payee for seven beneficiaries. During our
    review, she refused to allow us to interview four beneficiaries. As a result, we could
    not confirm whether the four beneficiaries were still in her care or their needs were
    being met. In addition, a beneficiary no longer in the representative payee’s care
    alleged the representative payee had not paid her bills on time and had misused her
    benefits.

   A self-employed woman in Mableton, Georgia was representative payee for
    four beneficiaries. At the time of our review, she refused to be interviewed and did
    not provide documentation for beneficiary expenditures. Subsequently, SSA
    appointed a new representative payee for three of the beneficiaries. We requested
    that SSA contact the new representative payee and interview the three beneficiaries
    to determine whether benefit misuse may have occurred.

   A woman in Chicago, Illinois with no earnings was representative payee for seven
    beneficiaries. During our review, we were unable to interview two beneficiaries
    because one refused to be interviewed and the other was allegedly out of town. The
    representative payee, who provided limited documentation to support beneficiary
    expenses, did not respond to SSA’s subsequent requests to interview the
    beneficiaries. SSA has agreed to continue follow-up actions to resolve this case.

   A woman in Baltimore, Maryland, who previously misused benefits totaling $4,628,
    claimed she had never served as a representative payee for a beneficiary who,
    according to SSA’s records, was in her care from December 2006 through
    October 2007. We determined the representative payee had endorsed and cashed
    the beneficiary’s checks, totaling $5,213. When we interviewed the beneficiary, she
    would not confirm misuse had occurred. However, the beneficiary’s new
    representative payee informed us the beneficiary had alleged the prior
    representative payee had stolen and mismanaged her benefits.

   A self-employed man in Salem, Massachusetts was representative payee for
    13 beneficiaries. During our review, one of the beneficiaries refused to be
    interviewed, and the representative payee provided only limited documentation to
    support beneficiary expenditures. We requested that SSA interview the beneficiary
    to confirm whether he was in the representative payee’s care and to determine
    whether his needs were being met.
Page 5 – The Commissioner


Representative Payees Did Not Have Support for Beneficiary Expenses

SSA requires that representative payees keep records and report on how funds were
spent by completing an annual Representative Payee Report.9 SSA uses the Report to
monitor how representative payees spent and/or saved the benefits on behalf of
beneficiaries, and to identify situations where representative payment may no longer be
appropriate or the representative payee may no longer be suitable.10

During our review, we found that 39 representative payees did not have adequate
records to support how beneficiary funds were spent. These payees received about
$1.2 million on behalf of 194 beneficiaries. This consisted of 15 representative payees
who did not maintain documentation of expenditures for 70 beneficiaries and
24 representative payees who provided limited documentation of expenditures for
124 beneficiaries. Of the 39 representative payees, 31 either had no earnings or were
under age 50 and had earnings below the poverty level.

       Characteristics                            Unsupported Expenditures
                                Number of Representative Payees          Number of Beneficiaries
     No Earnings                                 14                                 75
     Under Poverty Level                         17                                  73
     Self-employed                                8                                  46
     Total                                       39                                 194

According to SSA, the source of a representative payee’s income is a factor in
determining how likely the payee will use the benefits in the beneficiary’s best interest.
A representative payee who does not have a reliable source of income is more likely to
divert the beneficiary’s funds for their own use.11 In addition, during our review, we
identified practices followed by the representative payees that significantly increased
the risk of benefit misuse. This included operating on a cash basis and/or commingling
beneficiary funds with their own funds.

     A woman in Pinole, California with no earnings who was representative payee for
      five beneficiaries operated on a cash basis and provided limited and questionable
      documentation for beneficiary expenditures. For example, the representative payee
      provided us receipts for monthly rental payments of $950 for the residence in which
      she lived with four beneficiaries. The receipts showed the rent was paid to a third
      party, a realtor, who when interviewed, claimed that she owned the residence.
      However, we learned the home was actually owned by another beneficiary who lived
      in the residence.



9
    A Guide for Representative Payees, SSA Publication No. 05-0076, January 2009.
10
     SSA, POMS, GN 00605.001.B.1.
11
     SSA, POMS, GN 00502.117.A.3.
Page 6 – The Commissioner


     A self-employed woman in Lancaster, Texas was representative payee for
      12 beneficiaries who resided in an assisted living facility that she owned and
      operated. The representative payee maintained limited support for beneficiary
      expenditures and commingled beneficiaries’ funds with her personal accounts. In
      addition, we learned the representative payee had filed for bankruptcy on several
      occasions, and had a $76,000 Internal Revenue Service tax lien. In December
      2008, we referred this case to SSA for appropriate action. SSA decided to appoint
      new representative payees for all the beneficiaries in the representative payee’s
      care.

Representative Payee Performance

We found that 42 of the 60 representative payees did not meet their responsibilities to
the beneficiaries in their care. Specifically, representative payees did not always
provide for beneficiaries’ basic needs, acted as conduit payees, did not report events
that affected a beneficiary’s eligibility or payment amount, charged inappropriate fees,
and/or did not inform SSA that they were acting as a “de facto” representative payees
for beneficiaries in their care.

    Failure to Meet Beneficiaries’ Needs - Through our interviews and observations, we
found that the representative payees generally met the beneficiaries’ needs. However,
the needs of four beneficiaries in the care of two representative payees were not met.
One beneficiary was forced to sleep in the representative payee’s garage and was
provided only one meal per day. SSA appointed a new representative payee for the
beneficiary. We also found that three beneficiaries were living in an unsanitary
environment. Specifically, the three beneficiaries, two of whom were minors, were living
in a trailer with at least eight dogs. While we interviewed the beneficiaries, we observed
animal waste throughout the living quarters. We discussed our observations with SSA
staff, and they agreed that the case should be referred to the local Department of
Human Services for appropriate action. The Department of Human Services
investigated the living conditions and instructed the representative payee to take
corrective action.

    Conduit Payees - According to SSA policy, a conduit payee turns over the full
amount of benefits to the beneficiary or another person without giving any direction or
instruction on how to use the funds.12 Conduit payees do not exercise control over the
funds and cannot accurately account for how the funds are spent. When a conduit
payee is identified, SSA is required to determine whether a new representative payee is
needed or the beneficiary is capable of receiving direct payment.13 During our review,
we found that 8 representative payees were acting as conduit payees for
20 beneficiaries who received approximately $112,000 in annual benefits. A
representative payee in Chicago, Illinois, turned over the entire $785 monthly benefit to
one of the beneficiaries in her care without giving any direction on how to use the

12
     SSA, POMS, GN 00602.001.B.1.
13
     SSA, POMS, GN 00608.044.
Page 7 – The Commissioner


benefits. In addition, the representative payee did not maintain a bank account or any
records of how the benefits were spent. Consequently, the representative payee no
longer controlled the funds nor could she account for how the funds were used. As a
result of our review, SSA appointed a new representative payee for the beneficiary.

   Unreported Work and Earnings - Our review disclosed that five representative
payees did not report to SSA when beneficiaries had work and earnings that affected
their entitlement to benefits. As a result, SSA established overpayments totaling
$87,222 for six beneficiaries, and suspended benefits for another eight beneficiaries
pending its determination of whether they remain eligible for disability benefits.

    A representative payee in Lehighton, Pennsylvania did not report that a beneficiary
     in her care had worked and earned over $18,000 in 2007 while receiving disability
     benefits. As a result, the beneficiary and his three children were overpaid $39,929.

    A representative payee in Salem, Massachusetts did not report that a beneficiary in
     his care had earned over $45,000 in 2006 and $48,000 in 2007 while receiving
     disability benefits. During our interview, the representative payee stated that he was
     aware of the beneficiary’s work. However, he did not report it to SSA because the
     beneficiary informed the representative payee that she had previously reported the
     earnings to SSA. As a result of the representative payee’s failure to report the
     earnings, the beneficiary was overpaid $43,105.

   Institutionalized Beneficiaries - We found that four representative payees did not
report when beneficiaries in their care had been institutionalized—three beneficiaries
were incarcerated, and one beneficiary was in a State-funded institution. As a result,
the beneficiaries were overpaid $21,002. For example, a beneficiary in Sacramento,
California was overpaid $7,760 because his representative payee did not report his
incarceration to SSA in a timely manner. In addition, the representative payee, who
was also entitled to disability benefits, was overpaid $32,000 because she did not report
her own work and earnings while collecting disability benefits.

    Monitoring Conserved Funds - Under the SSI program, a recipient is limited to
countable resources totaling $2,000 to remain eligible for payments. If this resource
limit is exceeded, the recipient may no longer be eligible for benefits. A representative
payee must notify SSA if a recipient’s resources exceed $2,000 at the beginning of any
payment month.14 During our review, we found that two representative payees did not
adequately monitor resource limits for four SSI recipients. As a result, one recipient
was overpaid $1,250, and the remaining three recipients were referred to SSA for
appropriate action.

   Inappropriate Fees - A representative payee in Rhode Island was charging each of
the seven beneficiaries in his care monthly fees ranging from $25 to $43 to manage
their Social Security benefits. This fee was in addition to a monthly fee he received as

14
  A Guide for Representative Payees, SSA Publication No. 05-0076, January 2009 and SSA, POMS,
SI 01110.001 and SI 01110.003.
Page 8 – The Commissioner


their court-appointed guardian. The representative payee was not authorized, as
required by SSA policy,15 to collect a fee for his representative payee services.
Furthermore, SSA does not allow representative payees to collect fees if they are
already receiving compensation, including court or guardianship fees for performing
representative payee services.16 We also found that the representative payee
improperly charged each beneficiary $250 for his efforts related to our review. We
referred this case to SSA for appropriate action.

    Acting as a Representative Payee Without SSA’s Knowledge - We found that a
representative payee had been managing approximately $32,000 in annual benefits for
three beneficiaries without SSA’s knowledge. Although he was their court-appointed
guardian, he did not complete an SSA representative payee application. Consequently,
SSA was unaware the beneficiaries may have been incapable and were in his care.
SSA requires that individuals complete an application to become a representative payee
on a beneficiary’s behalf. SSA uses the application information to evaluate the
applicant's qualifications and suitability to serve as a representative payee.17 We
referred this case to SSA for appropriate action.

CONCLUSION AND RECOMMENDATIONS
SSA should use the five NAS characteristics we reviewed to identify representative
payees with an increased risk of benefit misuse. Most notably, we found those
representative payees with limited or no earned income and who served beneficiaries
who were not related to the representative payee were subject to a higher risk of benefit
misuse. Moreover, many of these representative payees engaged in questionable
practices, such as failing to maintain documentation to support expenses, operating on
a cash basis, or commingling beneficiary funds with their own funds. These practices
further increased the risk of benefit misuse. Therefore, we recommend that SSA:

1. Ensure corrective actions are taken for the representative payees and beneficiaries
   identified by our audit.

2. Use the five NAS characteristics to evaluate whether representative payee
   applicants are suitable and will serve the best interests of beneficiaries.

3. Consider additional monitoring of representative payees who have one or more of
   the NAS characteristics.




15
     SSA, POMS, GN 00506.210.A.
16
     SSA, POMS, GN 00506.220.A.
17
     SSA, POMS, GN 00502.107.A.
Page 9 – The Commissioner


AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with Recommendations 1 and 3. SSA partially agreed with
Recommendation 2, stating that as soon as it completes an analysis of the NAS
characteristics and our findings, it can better determine any necessary changes to its
representative payee polices and procedures. We believe SSA’s response and planned
actions adequately address our recommendations. The Agency’s comments are
included in Appendix D.


                                           S
                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
MBR      Master Beneficiary Record
MEF      Master Earnings File
NAS      National Academy of Sciences
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
RPS      Representative Payee System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                    Appendix B

Scope and Methodology
We obtained a data extract from the Social Security Administration’s (SSA)
Representative Payee System (RPS) of individual representative payees who were
serving 14 or fewer beneficiaries as of September 2007. We then obtained earnings
information for each of the representative payees identified from SSA’s Master Earnings
File (MEF). We then identified only those representative payees who resided within the
48 contiguous United States and managed at least $800 in monthly benefits. Using this
information, we identified a population of 3,329 representative payees who had at least
3 of the following characteristics.

•   The payee served between 4 and 14 beneficiaries.
•   At least one beneficiary was not a relative of the payee.
•   The payee had self-employment income.
•   The payee had no earnings from employment (that is, wages).
•   The payee was under age 50 and had annual earnings less than $9,973.

The 3,329 representative payees managed approximately $125.2 million in annual
benefit payments for 17,288 beneficiaries.

To accomplish our objective, we

•   reviewed the applicable sections of the Code of Federal Regulations, U.S. Code,
    and SSA’s Program Operations Manual System;

•   reviewed the National Academy of Sciences’ report, Improving the Social Security
    Representative Payee Program: Serving Beneficiaries and Minimizing Misuse,
    issued in July 2007;

•   obtained and reviewed queries from SSA’s RPS, Master Beneficiary Record (MBR),
    Supplemental Security Record (SSR), MEF, Numident, Prisoner Update Processing
    System, and the Fugitive Felon SSA Control File;

•   obtained and reviewed personal reports from the LexisNexis Website for each
    representative payee in our sample;

•   interviewed the selected representative payees;




                                            B-1
•   conducted financial reviews and interviewed the beneficiaries who were in the
    representative payees’ care in Calendar Year 2007 and observed their living
    conditions;

•   worked with SSA field offices to locate representative payees who did not respond to
    our telephone calls or letters;

•   referred cases to SSA to confirm whether 27 beneficiaries were in their
    representative payees’ care; and

•   interviewed SSA employees from the Office of Income Security Programs.

We determined the computer-processed data from the RPS, MBR, and SSR were
generally reliable for our intended use. We conducted tests to determine the
completeness and accuracy of the data. These tests allowed us to assess the reliability
of the data and achieve our audit objective.

We performed audit work in Boston, Massachusetts; New York, New York; Philadelphia,
Pennsylvania; Baltimore, Maryland; Falls Church, Virginia; Atlanta, Georgia;
Birmingham, Alabama; Chicago, Illinois; Dallas, Texas; Kansas City, Missouri; and
Richmond, California, between March 2007 and April 2009. The entity audited was the
Office of Income Security Programs under the Deputy Commissioner for Retirement and
Disability Policy.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                           B-2
                                                                        Appendix C

Sampling Methodology and Results
We obtained a data extract from the Social Security Administration’s (SSA)
Representative Payee System (RPS) of individual representative payees who were
serving 14 or fewer beneficiaries as of September 2007. We obtained earnings
information for each of the representative payees identified from SSA’s Master Earnings
File (MEF). We then identified those representative payees that resided within the 48
contiguous United States and managed at least $800 in monthly benefits. Using this
information, we identified a population of 3,329 representative payees who had at least
3 of the following characteristics.

•   The payee served between 4 and 14 beneficiaries.
•   At least one beneficiary was not a relative of the payee.
•   The payee had self-employment income.
•   The payee had no earnings from employment (that is, wages).
•   The payee was under age 50 and had annual earnings less than $9,973.

We randomly selected a sample of 60 representative payees (20 each in 3 strata) who
resided within 120 miles of 1 of our offices. For each sampled representative payee, we
conducted a financial review to determine proper use of benefits and whether misuse
may have occurred. We also interviewed the representative payees to determine
whether they understood their responsibilities for the beneficiaries in their care. Finally,
we interviewed the beneficiaries and observed their living conditions to determine
whether their needs were being met. The following tables provide the details of our
population, sample, and sample results.




                                            C-1
Table 1 – Population and Sample Size

                                                                   Number of
                                       Number of
                                                            Representative Payees         Sample
        Strata Description           Representative
                                                                Within 120 Miles           Size
                                        Payees
                                                             of One of Our Offices
    Payee had no
    earnings from employment               1,741                      414                    20
    Payee had
    self-employment income                 1,182                      291                    20
    Payee was under age 50
    and had annual earnings                  406                         95                  20
    less than $9,973

    Total                                  3,329                      800                    60


Table 2 – Sample Results

                                     Number of                             Annual
                                                          Number of                       Amount
     Description of Issue          Representative                         Benefits
                                                         Beneficiaries                    Overpaid
                                      Payees1                             Managed
    Payee would not confirm
    whether beneficiaries
    were in their care                      5                  11              $73,004    Unknown
    Payee did not meet the
    beneficiaries’ needs                    2                   4              $31,694       N/A
    Payee did not maintain
    documentation of
    benefit expenditures                   39                 194         $1,228,114         N/A

    Payee acted as conduit                  8                  20             $112,368       N/A
    Individual was a
    de facto payee                          1                   3              $31,698       N/A
    Payee failed to notify
    SSA of reportable
    events                                  9                  21             $110,042   $109,4742




1
    There were 42 representative payees who had 1 or more errors.
2
    The amount overpaid occurred over a 34-month period (February 2006 through November 2008).


                                                   C-2
                  Appendix D

Agency Comments
                                              SOCIAL SECURITY

MEMORANDUM


Date:      August 07, 2008                                                         Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Margaret J. Tittel          /s/
            Acting Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, “Characteristics of Representative Payees
            That May Increase the Risk of Benefit Misuse” (A-09-08-38055)--INFORMATION



           Thank you for the opportunity to review and comment on the draft report. We appreciate the
           comprehensive work that the OIG auditing team did on this report. Our response to the report
           findings and recommendations is attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CHARACTERISTICS OF REPRESENTATIVE PAYEES THAT MAY
INCREASE THE RISK OF BENEFIT MISUSE” (A-09-08-38055)


We have reviewed the draft report and our responses to the specific recommendations are
provided below.

Recommendation 1

Ensure we take corrective actions for the representative payees (Rep Payee) and beneficiaries
identified by OIG’s audit.

Comment

We agree. We will continue to review and investigate the cases referred to us and will take the
necessary action.

Recommendation 2

Use the five National Academy of Sciences’ (NAS) characteristics to evaluate whether Rep
Payee applicants are suitable and will serve the best interests of beneficiaries.

Comment

We partially agree. As soon as we complete our analysis, as discussed in our response to
recommendation three, we can better determine if we need to make changes to our policies and
procedures for selection of Rep Payees.

Recommendation 3

Consider additional monitoring of Rep Payees who have one or more of the NAS characteristics.

Comment

We agree. We recently developed a model for identifying Rep Payees with a higher probability
of misusing benefits. We are analyzing the model, with the NAS study and OIG’s findings on
misuse characteristics in mind, to identify possible changes in our policies and procedures for
Rep Payee selection and monitoring. We expect to make a recommendation on changes to our
selection and monitoring procedures by March 31, 2010.




                                              D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James, J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Manfei Lau, Senior Auditor

   Vickie Choy, Auditor

   Atlanta Audit Division
   Boston Audit Division
   Chicago Audit Division
   Dallas Audit Division
   Evaluation Division
   Kansas City Audit Division
   New York Audit Division
   Philadelphia Audit Division

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-08-38055.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
